            U.S. Department of
                                                                  Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General

Subject:    INFORMATION: Quality Control Review of                              Date:    January 24, 2011
            Single Audit on the Chicago Transit Authority
            Report No. QC-2011-034
                                                                             Reply To    JA-20

  From:     Earl C. Hedges                                                    Attn Of:
            Program Director for Single Audit
    To:     Regional Administrator, FTA, Region V


            The U. S. Department of Transportation (DOT) is the cognizant Federal single
            audit agency for the Chicago Transit Authority (Authority). This report presents
            the results of our Quality Control Review of a single audit performed by Crowe
            Horwath LLP on the Authority for the fiscal year ending December 31, 2009.
            During this period, the Authority expended about $529 million from the following
            DOT grant programs.

           DOT Operating                  CFDA*    Program Name             FY 2009     Major Direct
           Administration                 Number                          Expenditures Program Award
            Federal Transit                   ARRA Capital Investment
                                   20.500                                  $30,937,159       Yes     Yes
            Administration                          Grants Program
            Federal Transit                        Capital Investment
                                   20.500                                 $170,248,540       Yes     Yes
            Administration                          Grants Program
            Federal Transit                        Capital Investment
                                   20.500                                      $11,700       Yes     No
            Administration                      Grants (Oakton Station)
            Federal Transit                         ARRA Formula
                                   20.507                                 $160,047,984       Yes     Yes
            Administration                          Grants Program
            Federal Transit                         Formula Grants
                                   20.507                                 $165,801,581       Yes     Yes
            Administration                              Program
            Federal Transit                          Metropolitan
                                   20.505                                   $1,155,340       No      No
            Administration                          Planning Grants
           Federal Highway                         Highway Planning
                                   20.205                                     $230,003       No      Yes
            Administration                          and Construction
            Federal Transit
                                  Various               Various               $913,134       No      Yes
            Administration
            * Catalogue of Federal Domestic Assistance

            Office of Management and Budget (OMB) Circular A-133, “Audits of States,
            Local Governments, and Non-Profit Organizations,” requires the auditor to render
            an opinion on the entity’s financial statements, identify inappropriate use of
                                                                                                             2
Federal funds, and report internal control and compliance deficiencies that affect
Federal grant programs.

Crowe Horwath rendered an unqualified (clean) opinion on the Authority’s
financial statements and compliance with major Federal program requirements and
did not question any costs concerning DOT grant programs.

However, Crowe Horwath made recommendations to correct the following
internal control and compliance deficiencies that directly affect DOT programs. 1
The Authority’s timely correction of these deficiencies is critical to ensuring
proper use of the American Recovery and Reinvestment Act funds. These
deficiencies include:

    • Inadequate controls for ensuring compliance with Davis-Bacon Act
      requirements,
    • Inadequate controls applicable to American Recovery and
      Reinvestment Act Section 1512 Reporting.

We performed a Quality Control Review of Crowe Horwath's audit work to
determine: (1) whether the audit work complied with generally accepted
government auditing standards as prescribed by the Comptroller General of the
United States, the Single Audit Act of 1984, as amended (Act), and OMB Circular
A-133; and (2) the extent to which we could rely on the audit work.

RESULTS
Based on our Quality Control Review, we determined Crowe Horwath's audit
work to be acceptable with deficiencies. Furthermore, the audit work generally
met the requirements of generally accepted government auditing standards, the
Act, and OMB Circular A-133. We found nothing to indicate that Crowe
Horwath's opinion on the financial statements or reports on internal control and
compliance were inappropriate or unreliable.

We identified deficiencies in Crowe Horwath's audit documentation. Based on
explanations provided by Crowe Horwath in response to our concerns, we
determined that these deficiencies did not alter the overall results of audit.
However, in future audits, Crowe Horwath should correct these deficiencies in
order to adequately support its audit conclusions. The deficiencies are related to
the following area:

    Equipment & Real Property Management (Compliance Requirement F).
    Crowe Horwath needs to better document its testing of the Authority's
    resolution of differences between physical inventory counts and equipment
    records, and the determination that equipment acquired under Federal awards

1
 We advised FTA about these deficiencies in a separate memorandum. The single audit report issued by Crowe
Horwath is available upon request. Requests should be sent to singleauditrequest@oig.dot.gov
                                                                                 3
   is adequately safeguarded and maintained. Crowe Horwath agreed that in
   future audits, it would better document its testing of equipment acquired with
   Federal funds.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.
                                        #

cc: Audit Liaison, FTA, TBP-11
    Audit Liaison, OST, M-1
    Manager II - Grant/Receivable Accounting, Chicago Transit Authority
